No.
IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL NUNEZ
Petitioner
-againstUNITED STATES OF AMERICA
Respondent

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Title 18, United States Code §3006A(6) and Rule 39 of this Court’s
Rules, Petitioner Michael Nunez, requests leave to file the attached Petition for a Writ of
Certiorari to the United States Court of Appeals for the Second Circuit without
prepayment of costs and to proceed in forma pauperis.
Petitioner was granted in forma pauperis relief and was appointed counsel under
18 U.S.C. §30006A(b) in the United States Court of Appeals for the Second Circuit.
Dated:

New York, New York
March 10, 2021
Respectfully submitted,
LAWRENCE MARK STERN
Counsel of Record
100 Hudson Street, #6A
New York, New York 10013
(212) 925-6863
lmstern@verizon.net
Attorney for Petitioner

